<html>
<title> - THE MILITARY'S ROLE IN DISASTER RESPONSE: PROGRESS SINCE HURRICANE KATRINA</title>
<body><pre>[Senate Hearing 110-549]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-549
 
  THE MILITARY'S ROLE IN DISASTER RESPONSE: PROGRESS SINCE HURRICANE 
                                KATRINA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2007

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
37-361 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
              Eric P. Andersen, Professional Staff Member
              Alistair F.A. Reader, Legislative Assistant
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                Asha A. Mathew, Minority Senior Counsel
                    John K. Grant, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Stevens..............................................    23

                               WITNESSES
                        Thursday, July 19, 2007

Peter F. Verga, Acting Assistant Secretary of Defense for 
  Homeland Defense and Americas' Security Affairs, U.S. 
  Department of Defense..........................................     5
General Victor E. Renuart, Jr., U.S. Air Force, Commander, North 
  American Aerospace Defense Command and U.S. Northern Command...     7
Vice Admiral Roger Rufe, U.S. Coast Guard (Ret.), Director, 
  Office of Operations Coordination, U.S. Department of Homeland 
  Security.......................................................    10
Lieutenant General H. Steven Blum, U.S. Army, Chief, National 
  Guard Bureau...................................................    12
Major General John W. Libby, U.S. Army, Adjutant General, Maine 
  National Guard, and Commissioner, Maine Department of Defense, 
  Veterans, and Emergency Management.............................    14

                     Alphabetical List of Witnesses

Blum, Lieutenant General H. Steven:
    Testimony....................................................    12
    Prepared statement...........................................    67
Libby, Major General John W.:
    Testimony....................................................    14
    Prepared statement...........................................    75
Renuart, General Victor E., Jr.:
    Testimony....................................................     7
    Prepared statement...........................................    48
Rufe, Vice Admiral Roger:
    Testimony....................................................    10
    Prepared statement...........................................    63
Verga, Peter F.;
    Testimony....................................................     5
    Prepared statement...........................................    31

                                APPENDIX

``Report to the Senate Committee on Armed Services and the House 
  Committee on Armed Services on Department of Defense Civil 
  Support, '' April 2007, submitted by Mr. Verga.................    80
Questions and responses for the Record from:
    Mr. Verga....................................................   101
    General Renuart, Jr..........................................   112
    Vice Admiral Rufe............................................   120
    Lt. General Blum.............................................   137
    Major General Libby..........................................   147


                    THE MILITARY'S ROLE IN DISASTER
                        RESPONSE: PROGRESS SINCE
                           HURRICANE KATRINA

                              ----------                              


                        THURSDAY, JULY 19, 2007

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:50 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Collins, Stevens, and Warner.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order. Thanks to everyone, particularly our distinguished panel 
of witnesses, for being here. I am going to start. Senator 
Collins has been unavoidably delayed, but we work so well 
together. There is this kind of extrasensory--thanks. Welcome, 
Senator Collins.
    Almost 2 years ago, Hurricane Katrina overwhelmed a 
governmental emergency response system that was shockingly 
underprepared. Most local, State, and Federal emergency 
agencies--with a few exceptions, like the Coast Guard and the 
Louisiana Fish and Wildlife Service--stumbled while the region 
drowned. And many lives were lost.
    In the immediate aftermath of that disaster, we in the 
Federal Government, and the American people more generally, had 
to face a big, painful question: Why weren't we better prepared 
for a disaster that we knew one day was going to happen?
    Today's hearing, which will focus specifically on the role 
of our Nation's military in responding to disasters, is an 
important part of this Committee's ongoing efforts to ensure 
that we won't ever have to ask that question that we asked 
after Hurricane Katrina again.
    The response of our Nation's military--both active duty and 
National Guard--to Hurricane Katrina was ultimately 
unprecedented and very important. More than 70,000 military 
personnel deployed to the Gulf Coast from all across the 
country, bringing with them helicopters, ships, medical 
support, and logistical capabilities.
    However, as this Committee's investigation into the 
aftermath of Hurricane Katrina revealed, there were very 
serious weaknesses in planning, preparedness, and coordination 
within the Department of Defense and between the Department of 
Defense and the Department of Homeland Security.
    In March of this year, the Commission on the National Guard 
and Reserves, tasked by Congress with assessing the role that 
the Department of Defense should play in homeland defense, 
reached this sobering conclusion:
    ``Although the current DOD Strategy for Homeland Defense 
and Civil Support states that securing the U.S. homeland is 
`the first among many priorities,' DOD, in fact, has not 
accepted that this responsibility requires planning, 
programming, and budgeting for civil support missions.''
    The Commission made a number of thoughtful recommendations 
to ensure that the active and reserve components of the 
military, the Department of Homeland Security, and the States 
can respond more effectively and seamlessly to a disaster.
    To his credit, Secretary of Defense Robert Gates has agreed 
with a majority of those recommendations and directed the 
Department to begin an aggressive implementation schedule to 
improve the military's ability to provide support after 
domestic disasters--both natural and terrorist.
    We have a very impressive and important group of witnesses 
here today, and I hope that their testimony and answers can 
help us answer three questions.
    First, exactly what should we expect from the military in 
providing and carrying out the homeland security mission?
    Second, what is the Department of Defense doing to put in 
place the planning, programming, and budgeting necessary to 
carry out that mission?
    And, third, are the Department of Defense and the 
Department of Homeland Security doing everything they can 
within the current structure to ensure an effective, 
coordinated response to a catastrophic disaster, not just a 
natural disaster but a catastrophic disaster such as Hurricane 
Katrina, including a catastrophic terrorist attack with weapons 
of mass destruction?
    The National Intelligence Estimate (NIE) issued just 2 days 
ago found that al Qaeda remains intent on conducting and 
carrying out attacks on our homeland, and the NIE ominously 
warned, ``We assess that al Qaeda will continue to try to 
acquire and employ chemical, biological, radiological, or 
nuclear material in attacks and would not hesitate to use them 
if it develops what it deems is sufficient capability.''
    Are we prepared to prevent and respond to such attacks?
    Well, in April of this year, the Preventive Defense Project 
of Harvard and Stanford Universities, co-chaired by Ashton 
Carter and William Perry, provided an answer to that question 
that is not reassuring. The project brought together leading 
Federal, civilian, and military officials, and other experts 
from other levels of government and the private sector, and 
asked them a tough question: What would our Nation do in the 24 
hours following a nuclear attack on a U.S. city?
    The conclusion of Mr. Carter and Mr. Perry is jarring: 
Policymakers who they questioned in Washington, they found, 
continue to believe that State and local officials will be able 
to control the situation ``the day after'' a nuclear attack. 
Yet Mr. Carter and Mr. Perry argue, ``as the fiasco after 
Hurricane Katrina suggests, most cities and States will quickly 
be overwhelmed by the magnitude of the humanitarian, law and 
order, and logistical challenges of responding to a nuclear 
detonation.'' The result, they say, ``is a failure to plan 
realistically.''
    Now, that sounds too much like the lack of preparedness 
that contributed so much to the failed response to Hurricane 
Katrina, and I know all of us know that we cannot allow that to 
happen again. That is one big reason why we are holding this 
hearing today with a sense of urgency, why I appreciate the 
presence of the witnesses here, and why I look forward to their 
responses, not just to the questions I pose but to the 
conclusion of the Carter-Perry study.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you very much, Mr. Chairman.
    Every American who witnessed Hurricane Katrina's assault on 
the Gulf Coast and its aftermath has reason to feel proud of 
the men and women of America's armed forces. Whether active 
duty or National Guard, our military worked heroically and 
humanely to help rescue victims, maintain order, and provide 
vital services.
    As Assistant Secretary of Defense Paul McHale told the 
Committee during our investigation of the Hurricane Katrina 
disaster, the American military response--some 50,000 National 
Guard members and 22,000 active duty troops--was the largest 
domestic deployment since the Civil War. It was indeed a 
massive effort and a vital one for a devastated region and its 
suffering people.
    As we also learned during our investigation, however, more 
help could have arrived sooner and been used more effectively 
with better planning, situational awareness, and coordination. 
Our Committee report on Hurricane Katrina spoke, in fact, of a 
``rapid but uncoordinated response.''
    Most disturbing was the lack of coordination among military 
headquarters in the early stages of the response. As Secretary 
McHale testified, ``National Guard planning, though superbly 
executed, was not well integrated with the Joint Staff at 
NORTHCOM.'' The director of operations at Northern Command told 
us that lack of a central overview of the massive State 
responses to the disaster prevented proper integration of 
capabilities and tasking of units until they arrived in the 
devastated region, and I think the Chairman and I will never 
forget the testimony of Admiral Keating, saying that Northern 
Command was unaware of the breaching of the levees until they 
read the papers the next morning.
    Our Hurricane Katrina investigation also produced seven 
specific recommendations for improving coordination between the 
Department of Defense and the Department of Homeland Security. 
The Post Katrina Emergency Management Reform Act which we 
authored implemented several of them.
    I can attest that at least one of our codified 
recommendations has already borne fruit. Each of FEMA's 10 
regional offices now has a Defense Coordinating Officer in that 
region, working directly with FEMA. I attended a FEMA exercise 
in New England this spring, and I heard over and over again 
that this arrangement has greatly improved operating 
relationships and communication.
    I am also pleased to hear that better coordination among 
planning staffs has been established and that the work advances 
on the 15 National Planning Scenarios. Fleshing out these 
plans, which include how we would respond to catastrophes such 
as earthquakes, pandemic flu, small-scale nuclear attacks, and 
a toxic industrial accident, is a vital part of preparing an 
effective response. Each of these scenarios could require a 
major response from DOD as well.
    Work by FEMA and DOD to streamline and predefine the 
``mission assignment'' process that caused so many delays 
during the response to Hurricane Katrina and was so 
bureaucratic is also another welcome sign of progress.
    As the Committee's report on the Hurricane Katrina 
investigation demonstrated, the number and scale of natural and 
manmade threats to our country demanded progress on many 
fronts. We not only need better contingency planning, but a 
more aggressive, forward-leaning posture as identifiable 
threats emerge and requests for civil support can be 
anticipated. We need better training, exercising, and 
communication. And, again, I think there has been some real 
progress in those areas. And we need better protocols for 
handling Emergency Management Assistance Compact requests among 
States, better arrangements for Federal and State command and 
coordination of effort, and greater clarity on balancing a 
President's ability to call on National Guard troops to restore 
order while preserving the States' very important and lead role 
in responding to natural disasters.
    Because the National Guard is such a vital part of our 
response capability, I am delighted that we have with us today 
the representative of the State Adjutant Generals to FEMA's 
National Advisory Council, and I am particularly proud and 
delighted that he comes from the great State of Maine. Our 
Adjutant General Bill Libby has deep experience in emergency 
management, and I am delighted to welcome all of our witnesses 
today, but particularly General Libby, with whom I have worked 
very closely.
    The views and issues before us today are matters of 
considerable concern to this Committee because they are 
literally potentially matters of life and death for American 
citizens.
    Again, I want to thank the Chairman for holding this 
hearing so that we can better assess the progress that has been 
made since Hurricane Katrina, and I am sure our witnesses will 
help us identify areas where work remains to be done.
    Thank you.
    Chairman Lieberman. Thank you, Senator Collins, for that 
excellent statement. Thanks particularly, among other things, 
for pointing out the pleasure and pride that I share that the 
recommendations in the FEMA reform legislation that emerged 
after our investigation are now being implemented and that a 
representative of the Department of Defense is present in each 
of the 10 regional offices, which should give people around the 
country a greater sense of security.
    Again, I thank all of you for being here. We have allotted 
up to 10 minutes to each of you for your opening statement, and 
we will begin now with Peter Verga, who is the Acting Assistant 
Secretary of Defense for Homeland Defense and Americas' 
Security Affairs. Good morning.

 TESTIMONY OF PETER F. VERGA,\1\ ACTING ASSISTANT SECRETARY OF 
 DEFENSE FOR HOMELAND DEFENSE AND AMERICAS' SECURITY AFFAIRS, 
                   U.S. DEPARTMENT OF DEFENSE

    Mr. Verga. Chairman Lieberman, Senator Collins, other 
Members of the Committee, thank you very much for the 
opportunity to appear today. In order to maximize the time we 
have for questions, I am going to keep my opening remarks very 
brief and to the point, but I would ask that a full statement 
be made part of the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Verga appears in the Appendix on 
page 31.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection, so ordered.
    Mr. Verga. The greatest threat in today's security 
environment is the nexus between transnational terrorism and 
chemical, biological, radiological, and nuclear (CBRN) weapons, 
as we call it. It was highlighted in the National Intelligence 
Estimate (NIE). You mentioned in your opening remarks that 
weapons proliferation does pose the greatest threat we have 
today.
    Unlike our adversaries during the Cold War, terrorist 
adversaries consider CBRN weapons ``weapons of first resort,'' 
not last resort. And should they ever acquire such weapons, we 
can be certain that they will use them against the United 
States at their very first opportunity.
    Our Nation, in cooperation with our international partners, 
has taken the fight to where the terrorists organize, plan, and 
train to keep them from striking Americans at home and abroad. 
But we must also think about and be prepared for that which we 
hope will never happen--that is, the use of such a weapon on 
American soil. And while we must be prepared for such a 
catastrophic event, at the same time we must think about and be 
prepared for those natural disasters and other emergencies 
which occur with regularity, albeit sometimes with unexpected 
intensity, as was demonstrated during Hurricane Katrina. As has 
been well documented, in terms of people displaced, businesses 
disrupted, economic effect, Hurricane Katrina was one of the 
most devastating hurricanes in U.S. history.
    The Department of Homeland Security and the Federal 
Emergency Management Agency are, of course, those agencies 
responsible for the coordinated U.S. national effort to prepare 
for, respond to, and recover from natural disasters and other 
events, including terrorist CBRN attacks. DOD, at the direction 
of the President or the Secretary of Defense, as appropriate 
and consistent with the law and the imperative to maintain 
military readiness, provides critical consequence management 
support to civil authorities as part of a comprehensive 
national response.
    With few exceptions, the capabilities and capacities that 
the Department of Defense can bring to bear in a natural or 
manmade disaster are designed for combat operations and the 
wartime protection of DOD's personnel and facilities. For the 
most part, DOD relies on general purpose military forces, dual 
capability units, or other existing DOD elements to support 
civil authorities in domestic consequence management.
    In case of a CBRN incident, such dual capability forces 
including the National Guard Weapons of Mass Destruction-Civil 
Support Teams, National Guard CBRNE Enhanced Response Force 
Packages, our Joint Task Force Civil Support, the Marine Corps' 
Chemical-Biological Incident Response Force, the Army's 
Explosive Ordnance Disposal Teams and Technical Escort Units, 
and the CBRNE Consequence Management Response Forces.
    In terms of preparation for natural disasters, the 
Department has acted upon the lessons identified in the White 
House, Senate, and House of Representatives examinations of the 
response to Hurricane Katrina. I have included in my formal 
statement for the record a copy of the report \1\ which was 
required by the John Warner National Defense Authorization Act 
for Fiscal Year 2007 on the Department's implementation of the 
recommendations identified in the White House and House of 
Representatives reports. Examples of some of the 
implementations have already been cited by the Chairman and 
Senator Collins: Close collaboration with the Department of 
Homeland Security and the Federal Emergency Management Agency 
(FEMA) in planning and preparing for catastrophic incidents; 
assignment of a Defense Coordinating Officer and Defense 
Coordinating Element to each of the 10 FEMA regions.
---------------------------------------------------------------------------
    \1\ The report submitted by Mr. Verga appears in the Appendix on 
page 80.
---------------------------------------------------------------------------
    The Secretary of Defense recently signed and we published 
an execution order providing the commander of U.S. Northern 
Command--my colleague, General Renuart--with specific forces 
and resources to employ in case of a hurricane: Installations 
to be used as FEMA mobilization centers, medium and heavy lift 
helicopters, search aircraft, and other capabilities.
    And in coordination with our colleagues at the Federal 
Emergency Management Agency, we have drafted pre-scripted 
requests for assistance for transportation, communication, 
debris removal, and other types of support. And the Defense 
Logistics Agency and the Federal Emergency Management Agency 
have entered into a Memorandum of Agreement to procure, store, 
rotate, and provide supplies, including meals, health and 
comfort kits, generators, and other types of support. We have 
also had annual and biannual exercises to ensure readiness and 
identify potential gaps and weaknesses in our plans and 
readiness.
    Mr. Chairman, I commend you and the Members of the 
Committee for your leadership in these important matters, your 
continued interest, efforts, and support for the Department of 
Defense in the defense of the United States and our ability to 
support civilian authorities here at home.
    I look forward to the opportunity to answer your questions.
    Chairman Lieberman. Thanks, Secretary, for a good opening 
statement.
    Am I correct that you are ``Acting'' because Secretary 
McHale is on military reserve duty in Afghanistan?
    Mr. Verga. He is, sir. Secretary McHale, who is also a 
member of the U.S. Marine Corps Reserve, went on active duty 
last December, deployed to Afghanistan. He has just returned 
back to the United States. He will be resuming his duties on 
August 1.
    Chairman Lieberman. Give him our thanks and our best 
regards.
    Mr. Verga. I will.
    Chairman Lieberman. And thank you for sitting in for him.
    Next we have General Victor Renuart, Commander of the North 
American Aerospace Defense Command and U.S. Northern Command. 
General, glad you are here. I believe this is the first time 
you have testified before the Committee since you have taken 
over this command. I know you come to it with extraordinary 
experience, and we look forward to working with you and hearing 
you now.

TESTIMONY OF GENERAL VICTOR E. RENUART, JR.,\1\ U.S. AIR FORCE, 
 COMMANDER, NORTH AMERICAN AEROSPACE DEFENSE COMMAND AND U.S. 
                        NORTHERN COMMAND

    General Renuart. Thank you, Mr. Chairman, Senator Collins, 
and Members of the Committee, I too am grateful for the 
opportunity as the new commander of both of those commands--
North American Aerospace Defense Command (NORAD) and U.S. 
Northern Command (USNORTHCOM)--to have the opportunity to come 
and talk to you today and answer questions from the Committee 
on a variety of topics relating to our missions.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Renuart appears in the 
Appendix on page 48.
---------------------------------------------------------------------------
    As you know, both NORAD and USNORTHCOM have the 
responsibility for homeland defense operations, conduct of both 
active and National Guard-supported missions to defend the 
homeland, as well as supporting civil authorities during some 
of the disasters we have talked about here.
    In fact, if you look at the events that we have seen in 
London just a few days ago, it reminds us why homeland defense 
must be the highest priority that our Nation gives to its 
military, and we at NORAD and USNORTHCOM stand ready to conduct 
those missions.
    In the area especially of support to civil authorities 
during disasters, we have worked very hard since Hurricane 
Katrina and in response to not only recommendations of the 
Committee but guidance from the Department of Defense to ensure 
that we are prepared and ready for each of the contingencies 
that are captured not just in a Chemical, Biological, 
Radiological, Nuclear, and High-Yield Explosive (CBRNE) event 
or a hurricane, but also in any one of the 15 National Planning 
Scenario events that have been highlighted by the government.
    We plan for, train for, and integrate the military unique 
capabilities that Mr. Verga mentioned just a moment ago into 
the overall response provided by the Department of Homeland 
Security, by FEMA, and, equally importantly, by the States. 
Each governor, each adjutant general has particular roles. I am 
pleased to say I had a chance to visit Major General Libby and 
Governor Baldacci in Maine just a few weeks ago to talk about 
this particular element of integrating USNORTHCOM capabilities, 
integrating the National Guard into a force that allows the 
governor to respond within his State. And so we have worked 
very hard to ensure that our Federal partners, as well as our 
State partners, understand that our job is to help make them 
successful.
    One of the most challenging disasters we prepare for is, as 
we have mentioned, the chemical, biological, radiological, 
nuclear, high-yield explosive event, again, called CBRNE. Just 
a few months ago in Exercise ARDENT SENTRY, we experienced one 
of those events in an exercise, a 10-kiloton improvised nuclear 
device exploded just outside of Indianapolis. The unified and 
integrated efforts of the Department of Homeland Security, the 
State of Indiana, the National Guards of not only Indiana but 
the surrounding States, and Title 10 forces from U.S. Northern 
Command not only was impressive to watch but allowed us to 
really understand and acknowledge some of the problems you 
mentioned, where it is very difficult for any one State or any 
one entity to deal with a disaster of that size. But from that 
we learned how we can become better integrated, how we can 
combine our forces in a way that truly takes advantage of the 
interdependent relationships of each of those agencies as we 
respond to something on that order of magnitude. And that can 
occur in an accident or intentionally, and so we have to be 
prepared for something similar to chemical explosions that we 
have had in plants on the East Coast in previous years. So 
whether it is manmade or natural, USNORTHCOM has to be prepared 
to support and respond.
    We have developed specific plans for each of these 
disasters, and we have worked hard with the Federal agencies 
that we sit here with today to ensure that the response is 
seamless, that the capacity and capabilities flow in time to 
allow the responders to absorb, as well as the public to feel 
confident that they are getting the right support from their 
State and the Federal Government.
    We have a specific Joint Task Force, our Joint Task Force 
Civil Support, which focuses on weapons of mass destruction 
response, and, in fact, I just installed their new commander 
yesterday down at Fort Monroe. A National Guard officer, Major 
General Long, is eager to help continue to improve and increase 
the capacity of that organization and stand ready to support 
any of the Federal and State agencies that may need it in an 
event of a disaster.
    I have tried to highlight so far--and I will continue to 
foot-stomp on this as I go through my statement--our teamwork 
relationship with the National Guard, with the Reserves of the 
various components, and with our Federal agencies is critical 
to ensuring that the response is adequate to the event.
    I would also like to say that we are working closely with 
international partners in the same regard. USNORTHCOM's Area of 
Responsibility includes both Canada and Mexico, and we have 
been in close contact with military and civilian agencies in 
both countries to ensure that a response to a CBRNE event in 
either country could be supported with forces available and 
unique capabilities available from both countries. But we need 
some assistance.
    There is an act being considered now, the Building Global 
Partnership Act of 2007, that will allow us to improve the 
homeland defense and civil support efforts not only of the 
United States but of our neighbors. In fact, that will increase 
our capacity to respond in our border areas for events like the 
Vancouver 2010 Olympics upcoming. We would ask, while not 
specifically under the purview of this Committee, but we would 
ask the support of the members as this is considered in 
upcoming discussions on the floor.
    Recently, NORAD and USNORTHCOM completed Exercises ARDENT 
SENTRY and NORTHERN EDGE, as I mentioned. This was the largest 
and most comprehensive set of national-level exercises ever 
undertaken. Our objectives, outlined in my written statement, 
provide an excellent point of departure for our key exercise 
events. While we continue to finalize our lessons learned, it 
is clear that collaboration and communication are the key 
threads that support the important missions of homeland defense 
and support to civil authorities.
    Hurricane preparedness, a focus of this Committee and 
certainly one of all of the agencies represented here, is an 
important area where collaboration, preparation, and 
communication are critical. U.S. Northern Command has made 
great strides in preparing for the 2007 hurricane season. 
Senator Collins, I appreciate your noting the presence of the 
Defense Coordinating Officers in each. These are post-brigade 
command Army officers in the grade of colonel with combat 
experience who understand not only the importance of planning 
for a difficult operation, but in executing it. I think they 
have all received rave reviews. Our role has been to increase 
the staff so that they have the muscle in the planning process 
to allow them to be successful, and we continue to look for 
ways to expand those relationships with the various regions of 
FEMA.
    Working with the various States, the Department of Homeland 
Security, the National Guard, and our other partners, we have 
conducted conferences, tabletop exercises, and collaborated 
routinely to ensure we are ready to respond to these natural 
disasters. We recently exercised our hurricane preparation 
during Exercise ARDENT SENTRY with a simulated Category 3 
hurricane striking the New England region, and, in fact, both 
of your States were represented in that exercise, and I had the 
opportunity to meet the adjutant generals of Connecticut, 
Massachusetts, and Rhode Island during this discussion. But 
importantly, we demonstrated the value of the Defense 
Coordinating Officer as well as the integration of State 
Emergency Operations Centers, the Joint Field Office with the 
regional director from FEMA, as well as our Joint Task Force 
Headquarters. What we found is that there are no gaps in 
command and control, in integration, and in intent. The ability 
to bring those together in a cohesive fashion really was a 
significant element of progress made since Hurricane Katrina.
    USNORTHCOM continues to work closely with our National 
Guard and reserve components. I am pleased to have my National 
Guard advisor, Major General Rick Nash, here with me today. We 
believe these efforts and initiatives really help us to 
increase our communication, our collaboration, and our 
cooperation. And we have especially worked hard with both FEMA 
and the Department of Homeland Security to strengthen the unity 
of effort.
    Mr. Chairman, Senator Collins, the men and women of 
USNORTHCOM remained focused on homeland defense, and we are 
prepared to support civil authorities in any activity. 
Additionally, we seek to be joint in all we do. We use 
interagency cooperation as much as possible, and we push that 
with each of our agency partners. And we are not hampered by 
who is in charge or who gets credit. In fact, the guidance we 
have given to our staff is that our role is to make the Federal 
agencies, the governor of a State, and the adjutant general a 
hero, and they do not need to even know that USNORTHCOM is 
there. We just need to make it succeed.
    Mr. Chairman, Senator Collins, thank you for your time, and 
I look forward to your questions.
    Chairman Lieberman. Thanks very much, General Renuart. Your 
testimony was encouraging, and I think we ought not to take for 
granted the transition that has occurred. The Command over the 
decades of the Cold War was really primarily responsible for 
defending the United States from attack from the air, including 
nuclear attack, from the Soviet Union. And after September 11, 
you took on this additional responsibility of homeland defense, 
which now in some sense is a central responsibility for you. So 
I appreciate it very much. I know we will have some questions 
for you.
    Next is Vice Admiral Roger Rufe, retired from the U.S. 
Coast Guard, now coming before us as Director of the Office of 
Operations Coordination at the U.S. Department of Homeland 
Security. I cannot resist saying, if I may paraphrase 
MacArthur, that it is not that you are an old general, but 
retired admirals of the Coast Guard do not fade away. They, 
fortunately, hang in there and continue to work for us at the 
Department of Homeland Security, and I thank you for taking on 
this assignment. Admiral, we look forward to your testimony 
now.

   TESTIMONY OF VICE ADMIRAL ROGER RUFE,\1\ U.S. COAST GUARD 
   (RET.), DIRECTOR, OFFICE OF OPERATIONS COORDINATION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Admiral Rufe. Mr. Chairman, Senator Collins, Members of the 
Committee, thank you very much for this opportunity to discuss 
with you the ongoing coordination between DHS and the 
Department of Defense for catastrophic events.
---------------------------------------------------------------------------
    \1\ The prepared statement of Admiral Rufe appears in the Appendix 
on page 63.
---------------------------------------------------------------------------
    My colleagues in their prepared remarks today have, I 
think, laid out in a very complete form the very extensive 
military support to and coordination with the Department of 
Homeland Security, so I am not going to go over that ground 
with you. I instead would like to concentrate my few moments 
here on the planning aspect of what we do with our partners at 
DOD. Mr. Chairman, both you and Senator Collins mentioned that 
extensively in your opening remarks, and I know it is a 
particular interest of yours.
    As you know, under the Homeland Security Presidential 
Directive-5 (HSPD-5), the Secretary is named as the ``principal 
Federal official'' for domestic incident management, and it 
also directs the Secretary to coordinate the Federal 
Government's resources used in the response to and recovery 
from terrorist acts, major disasters, or other emergencies.
    The Secretary's unique interagency responsibilities 
accentuate the importance of interagency planning--the very 
difficult job, I must say, of interagency planning. One of my 
primary roles in my job is to support the Secretary in 
coordinating our national-level strategic interagency planning 
effort.
    Two of the critical recommendations related to planning 
from the Federal response report to Hurricane Katrina after 
action was to, first, create a permanent planning body within 
DHS; and, second, to develop for the first time a formal 
planning process that could be used to build interagency plans 
for the 15 national planning scenarios, and we have done both 
of those things.
    In August of last year, less than a year ago, the Secretary 
directed the creation of the Interagency Incident Management 
Planning Team (IMPT), and directed me to oversee their actions 
in planning for the 15 planning scenarios. The mission of the 
IMPT is to provide national-level contingency planning and 
crisis action incident management planning through a 
collaborative, interagency process. The IMPT's planning process 
is designed to be at the strategic level, whereas FEMA's 
planning responsibility is at the operational level, as laid 
out in the Post Katrina Emergency Management Reform Act.
    The IMPT's initial efforts have been to develop national 
strategic level interagency concept plans that address each of 
the 15 National Planning Scenarios. Each plan developed by the 
IMPT identifies the actions that individual departments and 
agencies, including DOD, will take in the event of a given 
scenario, and they identify the national level commitments in 
one complete comprehensive document. To date, the IMPT has 
developed draft plans--and I stress they are draft plans at 
this point--to address the 10-kiloton improvised nuclear device 
scenario, the pandemic influenza, radiological dispersal 
device, major hurricane, and improvised explosive device.
    In the effort to put together a planning system that would 
allow us to develop these plans, DHS developed a National 
Planning and Execution System, which we developed with a great 
deal of support from DOD as they are really the only partner in 
the interagency that has a well-developed planning system. And 
because of that, we made sure that our efforts were quite well 
integrated with the planning system that DOD uses called the 
Joint Planning and Execution System (JOPES). We borrowed 
extensively--in fact, stole shamelessly--from some of the 
concepts therein and modified it to be more appropriate for the 
interagency and more civilian jargon. But it is now a very well 
accepted planning system. We have now trained over 500 members 
of the interagency in the planning system, so it is now being 
dispersed and disseminated to our partners in the interagency 
for their use in developing the plans that they need to prepare 
for.
    Once we have these plans on the shelf, in order to improve 
them, modify them, and make them more effective over time, we 
need to validate them through the exercise planning system. 
General Renuart mentioned ARDENT SENTRY. We were very active 
participants in the ARDENT SENTRY exercise this year, both in 
the hurricane scenario in Rhode Island, as well as the 10-
kiloton nuclear device, which gave us the opportunity for the 
first time to test in an exercise this draft plan that we had 
put together through the IMPT. We are now developing a 
radiological dispersal device (RDD) plan that we will have in 
draft form in time for the TOPOFF 4 exercise, which will occur 
in October. It will give us an opportunity at that time to test 
that plan against an RDD-type scenario.
    We have worked very closely with DOD in all these planning 
efforts. They not only are active participants on the IMPT in 
terms of providing us support, but we also have been engaged 
with them ensuring that the planning they are doing, which, 
quite frankly, is in advance of our planning, is fully 
integrated for each of the 15 planning scenarios.
    As you mentioned, I am an old admiral, Mr. Chairman. I 
retired from the Coast Guard in 1999, so I am kind of a Cold 
War guy, and so I relate to what you described as far as the 
transition in the Department of Defense. Since I returned to 
public service just a year ago, I, frankly, have been surprised 
and actually quite heartened by the deep and broad commitment 
that I have seen from all elements of the Department of Defense 
in protecting the homeland and working with the Department of 
Homeland Security and with the interagency. We could not ask 
for better partners in our efforts than our shipmates at DOD.
    I thank you both, Mr. Chairman and Senator Collins, and I 
look forward to your questions.
    Chairman Lieberman. Thanks very much, Admiral, and we look 
forward to the question period, too.
    Next we have Lieutenant General Steven Blum, Chief of the 
National Guard Bureau, who is a familiar face here, one we 
always enjoy having, and we always benefit from your testimony. 
Welcome.

 TESTIMONY OF LIEUTENANT GENERAL H. STEVEN BLUM,\1\ U.S. ARMY, 
                  CHIEF, NATIONAL GUARD BUREAU

    General Blum. Good morning, Chairman Lieberman, Senator 
Collins, and other Members of the Committee. Thanks for the 
opportunity to discuss the role of your military in disaster 
response here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Blum appears in the Appendix 
on page 67.
---------------------------------------------------------------------------
    Since September 11, 2001, we have all worked very hard to 
transform the National Guard to be better prepared to respond 
here at home in either a homeland defense or support the 
homeland security role. As you are well aware, on September 11, 
we had zero Joint Force Headquarters, only 10 civil support 
teams, no Chemical, Biological, Radiological, Nuclear Enhanced 
Response Force Packages, no critical infrastructure protection 
assessment teams, zero National Guard Reaction Forces that were 
trained, organized, and equipped to respond on short notice, 
and zero Computer Emergency Response Teams. Today I am pleased 
to tell you that we have 54 of each of those, 17 enhanced 
response force packages, and the old civil support teams that 
were established by Congress that were only 10 on September 11, 
now today we have 55, and hopefully that will grow in the 
future to 57.
    In addition, we have rebalanced 80,000 jobs in the National 
Guard in the last 5 years to train them from Cold War 
specialties to what we need today in today's real-world 
requirements. While we have made huge strides in training and 
exercising with our DOD partners, we are still not funded to 
participate in joint Department of Homeland Security exercises. 
The National Guard in the States are funded and trained to go 
to war, but they are not resourced to participate in large-
scale homeland security preparation exercises.
    I am honored to testify today with the gentlemen on this 
panel, all of them, from DOD, from NORTHCOM, from DHS, and from 
the States. The post-Katrina relationship between the States, 
the National Guard Bureau, the Department of Defense, the U.S. 
Northern Command, and the Department of Homeland Security grows 
stronger every day. This Committee needs to know that. We have 
worked very hard at it. Today, all of us sitting before you 
have a better understanding of the supported and supporting 
relationships that are necessary in times of crisis.
    I was the first Chief of Staff at NORTHCOM when it was 
established, and we all knew then we did not get everything 
perfect on the first attempt. I am extremely encouraged by 
General Renuart's committed leadership to making the changes 
that are required as problems are identified. There will always 
be room for improvement. We will never get it perfect. Within 
the Federal Government, though, we need a Department of 
Homeland Security, a Department of Defense, and a State 
cooperative planning process. This country needs and deserves 
that.
    We need, at the Federal level, specifically defined 
requirements and measuring metrics so that we can analyze the 
dual-use military equipment that we use in a homeland defense 
or homeland security response scenario. We need homeland 
security resource requests for military equipment to be 
submitted so that they get visibility here at the Congress.
    We need to train together. We need better visibility on the 
capabilities of our interagency and intergovernmental partners. 
Together this group represents a football team that is getting 
ready for the ultimate Super Bowl, and we need to train, 
exercise, scrimmage, practice, and huddle on a regular basis 
together.
    Our Nation's governors have stated their assessment is that 
their National Guard units in the States are underequipped for 
homeland security missions. As you know, the National Guard 
today has 53 percent of their required combat equipment, the 
dual-use equipment needed in an emergency, on hand here in the 
United States. The ability of each governor, as the commander-
in-chief of his or her National Guard, to plan and execute for 
the first response to an emergency is absolutely critical and 
essential to them. Governors know their local emergency 
capabilities and they know their limitations. Capable local 
response saves time. Saving time results in saving lives.
    There are operational models in place that the Federal 
Government might want to emulate, such as Israel's military/
civil support system, the Joint Interagency Task Force South 
that is in existence, the Incident Command System that our 
emergency responders use all over our Nation. These are great 
models that the Federal Government may want to take a look at.
    In Maine, and many States like it, people like Adjutant 
General Bill Libby have full visibility on both their civil and 
military disaster response capability. General Libby deploys 
resources in response to his known weak areas. His weak areas 
are well known to him, but we cannot know those intuitively at 
the national level, so we have to rely on local knowledge.
    In the National Guard, we have begun to build a joint 
capabilities database to fill this gap. National Guard units 
report their readiness to respond to various disaster 
scenarios, and they can include information on their civil 
first responder partners. We share this information with DOD 
and U.S. Northern Command and the Department of Homeland 
Security.
    Thank you for your efforts to improve the ability of the 
Department of Defense, the Department of Homeland Security, the 
National Guard, and the States to work together, and I look 
forward to your questions, Mr. Chairman.
    Chairman Lieberman. Thanks, General. I will wait for the 
question period, but did you say that the National Guard at 
this point is not funded to participate in the large-scale 
homeland defense exercises?
    General Blum. That are conducted by the Department of 
Homeland Security, yes, sir. They are funded to do the ARDENT 
SENTRY----
    Chairman Lieberman. So you were involved in ARDENT SENTRY.
    General Blum. Very heavily involved. That was probably, in 
my judgment, the finest exercise conducted by DOD and the 
National Guard here domestically to date.
    Chairman Lieberman. That is great. OK, thanks.
    Major General John W. Libby, U.S. Army, Adjutant General, 
Maine National Guard, with the very heavy responsibility of 
protecting Senator Collins in time of need. We thank you for 
that, and we look forward to your testimony now.

    TESTIMONY OF MAJOR GENERAL JOHN W. LIBBY,\1\ U.S. ARMY, 
ADJUTANT GENERAL MAINE NATIONAL GUARD, AND COMMISSIONER, MAINE 
   DEPARTMENT OF DEFENSE, VETERANS, AND EMERGENCY MANAGEMENT

    General Libby. Chairman Lieberman, Senator Collins, Members 
of the Committee, thank you for the opportunity to testify 
today. I want to emphasize at the beginning that I am here 
today representing the State of Maine and the Adjutants General 
Association of the United States (AGAUS), and my contemporaries 
throughout the country. Although I am a federally recognized 
and U.S. Senate-confirmed general officer, I am here today 
speaking as a State official in State status at State expense 
and expressing issues and interests that reflect the State's 
sovereign interests.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Libby appears in the Appendix 
on page 75.
---------------------------------------------------------------------------
    I wear multiple hats in the State of Maine. In addition to 
being a Cabinet-level commissioner on the governor's staff--my 
Cabinet, by the way, does include emergency management--I am 
also the adjutant general and the governor's homeland security 
adviser. Among my peers, this puts me in a rather unique 
situation wearing all of those hats.
    In my judgment, the place in the United States where the 
emergency management process is best integrated between 
military, civilian, and business partners is at State level, 
and this is a model, I think, that this Committee and the 
Federal Government needs to look at more closely.
    There is an emergency management axiom that suggests that 
all disasters are local; therefore, all response is local. And 
the governors have a sovereign responsibility to carry out in 
their respective States emergency preparedness, response, and 
recovery activities in the name of the health and welfare of 
the citizens of their respective States.
    When the resources to manage such events exceed the ability 
of the States, clearly we reach outside the States through 
mutual aid agreements, the Emergency Management Assistance 
Compact. In New England, the New England Governors and the 
eastern Canadian premiers have signed the International 
Emergency Management Assistance Compact similar to the Pacific 
Northwest Compact, which allows us to reach out to 
international partners. But I want to spend the bulk of my time 
this morning making some observations about the process.
    I believe there is an emerging exchange of information, 
views, and identification of capabilities taking place between 
DOD, DHS, and the States. As has been stated already, Maine was 
one of several States that General Renuart visited recently. 
The governor and I were immediately impressed by his 
philosophy, his candor, and his understanding of the States' 
sovereign roles. He articulated clearly his understanding that 
Federal military resources brought to the State would be at the 
request of, and in support of, the governor.
    We had a very interesting discussion about a term that we 
obsess about on both sides--``dual-hatted command''--and 
frankly concluded, the governor and I concluded, and I think 
the general agrees with us, that what we are looking for in 
Maine and in other States, although we can only speak for 
Maine, in the presence of Federal resources is support.
    The governor and I have no issues with Federal troops 
remaining under the command and control of either their normal 
chain of command or a Title 10 cell in the State of Maine. What 
we are looking for is the opportunity to assign tasks, 
designate missions, and give authoritative directions necessary 
to complete those missions. What we do not want or need in the 
presence of Federal resources is to direct matters of 
administration, discipline, logistics, internal organization, 
or unit training. What I am describing is a term of art that we 
call ``operational control,'' and we look forward to continuing 
that discussion with NORTHCOM.
    General Renuart also articulated and distinguished between 
his understanding and we agree with the need to deploy Federal 
resources in advance and the need to employ Federal resources 
at the request of the governor. We talked at length on several 
occasions this morning about the valued presence of the Defense 
Coordinating Officer and the DCE elements at each of the FEMA 
region offices. They are critical.
    We also talked about the fact that in developing a common 
operational picture, there is a problem right now in that 40-
plus States are using WebEOC, and that is not a system that is 
employed universally throughout the emergency management 
system.
    And, interestingly, from the governor and my standpoint, 
but encouragingly, the General supports the continued 
discussion about the role of reserve capability that resides in 
every State with regard to its availability to the governor in 
the event of a Federal declaration.
    General Renuart is continuing the dialogue begun by Admiral 
Keating, and we look forward to the AGAUS Homeland Security 
Subcommittee and meeting with him and his staff at the end of 
this month to continue that discussion.
    From our point of view, if there is a shortfall in the lack 
of dialogue, it occurs between the States and DHS. And it 
occurs principally because in many States the TAGs do not find 
themselves in my position where they wear the multiple hats 
that I wear. And I would point out to you a FEMA Region I 
initiative under the leadership of Art Cleaves which I think 
addresses this problem. Region I convenes quarterly homeland 
security forums for the regional States. Art includes in those 
forums the State's homeland security adviser, the State's 
adjutant general, and the State's EMA director. I may be the 
one guy from Maine representing all three of those positions, 
but from Massachusetts, by way of example, there are three 
different people in the room.
    What that forum does in its inclusiveness is it ensures 
that none of those three principal partners at the State level 
are out of the information loop. I think it is a model worth 
adopting nationwide.
    I would be remiss if I did not commend the Commission on 
the National Guard and Reserve for their recommendation on the 
establishment of a bipartisan Council of Governors. The issues 
surrounding a properly layered response to a major disaster are 
primarily, in my opinion, about communications and 
coordination, and this council will enhance both.
    I would be so bold from the State perspective as to make 
some recommendations to you this morning.
    One, preserve the ability of the State Governors to direct 
the emergency response in their respective States through the 
repeal of Section 1076 of the 2007 Defense Authorization Act.
    Two, reinforce the intent of HSPD-5 which states that the 
Secretary of Homeland Security is responsible for coordinating 
the Federal resources to prepare for, respond to, and recover 
from a terrorist attack, a major event, or other emergencies. 
The understanding of that Homeland Security ``Chain of 
Command'' at the Federal level is critical to communications 
and coordination.
    Three, accept the Commission on the National Guard and 
Reserve's recommendation that the commander or deputy commander 
of NORTHCOM be a National Guard officer, and note that I have 
not said National Guard or Reserve officer. It is our opinion 
that only a National Guard general officer who has risen 
through the ranks of the National Guard can fully understand 
the concept of the governor's roles and sovereign 
responsibilities. That is something that I would argue a U.S. 
Army Reserve officer cannot.
    And, finally, institutionalize NIMS within the DOD 
educational system. It is the language with which we speak at 
State level in responding.
    In conclusion, I would say within the Department of 
Homeland Security there is an organization, FEMA. It is the 
only organization that speaks efficiently, effectively, and on 
a daily basis from Washington, Maine, to Washington, DC. And I 
think FEMA needs to play a critical, an increased role in 
interagency coordination. I would close by quoting Casey 
Stengel, and, Senator, I apologize for this. Casey said, 
``Getting good players is easy. Getting them to play together 
is the hard part.'' We have great players.
    I thank you for the opportunity to testify, and I look 
forward to answering your questions.
    Chairman Lieberman. Thanks, General. That was excellent. 
Thanks for your suggestions. I presume your apology for quoting 
Casey Stengel, a great manager of the New York Yankees, was 
directed to Senator Collins, who is a Red Sox fan.
    Senator Collins. It was.
    General Libby. You are correct, sir. [Laughter.]
    Chairman Lieberman. Thanks very much for the excellent 
testimony.
    We are going to have 8-minute rounds of questions for the 
Senators. Let me begin by asking you a question that I am going 
to ask you to give a one-word answer to, yes or no, and then I 
am going to come back with a second one to give you plenty of 
time to elaborate on it. But I want to go to the conclusion 
that I mentioned in my opening statement that Ashton Carter and 
Bill Perry drew from this Defense Project in which they 
interviewed a great number of Federal civilian, military, and 
other experts, and the conclusion, I will repeat--which they 
presented with regret--was that policymakers in Washington 
continue to believe that State and local officials will be able 
to control the situation the day after. And in this case, of 
course, they were looking at the day after the extreme 
catastrophic circumstance of a nuclear attack, but, 
unfortunately, that is the world in which we live.
    Do each of you agree, from your own perspective, that 
policymakers in Washington continue to believe that State and 
local officials are going to be able to control the situation 
in a catastrophe the day after? Mr. Verga.
    Mr. Verga. No, sir, I do not believe so.
    Chairman Lieberman. General Renuart.
    General Renuart. Mr. Chairman, no, I do not believe that.
    Chairman Lieberman. OK. I can feel your desire to add to 
that, so I will come back to it.
    Admiral Rufe.
    Admiral Rufe. Nor do I, sir, and I participated in that 
roundtable, so I would be happy to answer further.
    Chairman Lieberman. Good. General Blum.
    General Blum. No, sir, I do not think so, and I think the 
word ``control'' is the problem. I would like to address that.
    Chairman Lieberman. Good. General Libby.
    General Libby. No, sir.
    Chairman Lieberman. OK. So let's come back and let me frame 
this question and give you a little more time. This is the 
quote that I had from the Commission on the National Guard and 
Reserves, in which they said, ``Although the current DOD 
Strategy for Homeland Defense and Civil Support states that 
securing the U.S. homeland is `the first among many 
priorities,' DOD, in fact,'' they concluded, ``has not accepted 
that this responsibility requires planning, programming, and 
budgeting for civil support missions.''
    So to turn it into the question that we have on our minds 
and that I can tell you our constituents have on their minds: 
If we accept the initial assumption, which is that State and 
locals in a catastrophe are going to be overwhelmed, as they 
were in Hurricane Katrina, are we prepared for a coordinated 
response from the get-go and specifically from the Department 
of Defense and Homeland Security? Mr. Verga.
    Mr. Verga. Sir, with regard to the specific recommendation, 
the Commission is correct in that we do not plan, program, and 
budget for support to civil authorities' missions per se, with 
a few exceptions, such as weapons of mass destruction civil 
support teams, things like that.
    Chairman Lieberman. That is important, though. That is 
relevant to the scenario that I was----
    Mr. Verga. Yes, sir. And I think that serves the Nation 
well because, quite candidly, to set up essentially a dual 
military structure that says you are going to have one set of 
capabilities that are designed, organized, trained, and 
equipped to operate with the civilian authorities alone and 
another set of capabilities that are designed for your overseas 
warfighting missions is sort of a false choice. And what we 
need to be able to do is employ those dual capability units and 
our general purpose military forces in that coordinated manner 
that General Renuart spoke about to meet those needs that the 
civilian communities do not have.
    In addition, I would very much support efforts to enhance 
and increase the capabilities in the civilian communities. You 
have noted the Strategy for Homeland Defense and Civil Support. 
That actually has three tenets to it: A concept of lead, 
support, and enable--things in which the Department of Defense 
will clearly be in the lead, the air defense of the country 
against air attack, for example, the military defense of the 
country against military threats. Supporting civil authorities 
with capabilities that we have that they need that are not 
appropriate to be invested in the civilian community. There is 
no need for the civilian community to have extensive ability to 
do aerial reconnaissance, for example, or to do space-based 
things, communications, for example.
    The other is that enable concept, and that is where we take 
capabilities the Department of Defense has or capacities, quite 
honestly, talents, plans, procedures, and then enable our 
civilian partners, such as helping Department of Homeland 
Security with their operational planning system, translating 
the Joint Operational Planning System into a civilian 
equivalent. And that is, I think, where we need to place our 
greatest emphasis.
    Chairman Lieberman. OK. General Renuart, Senator Collins 
made reference to something we found in our investigation of 
Hurricane Katrina, but Admiral Keating, your predecessor, was 
not directly involved initially in the response to Hurricane 
Katrina. As I recall, Deputy Secretary of Defense Gordon 
England watched what was happening on TV and acted just because 
of that kind of informal public notice in order to get Northern 
Command involved.
    So are we better prepared now for a quick response by our 
military in the case of a local catastrophe in the United 
States?
    General Renuart. Mr. Chairman, absolutely we are, and I say 
that without any doubt. We have spent a great deal of time 
working through our Defense Coordinating Officers but, more 
importantly, working directly with the States that, for 
example, in the case of the hurricanes are likely to be 
affected by these storms, working directly with their Adjutants 
General, with their State emergency management directors, and 
with the governors themselves, to ensure that we understand 
where they do have vulnerabilities and gaps.
    The National Guard Bureau has a great stoplight chart that 
can show you by level of hurricane, as the hurricanes become 
more intense, where the States begin to have shortfalls. Our 
role is to plan for those shortfalls and to be prepared to fill 
in those gaps, not when they call for the response but to be 
prepared prior.
    Mr. Verga mentioned the Secretary signed out an order in 
the last couple months that is giving me authority to mobilize 
and deploy a substantial force, not just necessarily of a 
standing brigade combat team but, rather, tailored kinds of 
capability--the ability to do reconnaissance of a damaged area, 
communications capability so that we do not have a repeat of 
the gaps in communication and the inability for first 
responders at the State level and military responders and 
assistants to communicate.
    The ability during the exercises that I have mentioned for 
us to integrate command and control capabilities, it is not an 
issue of who is in command but, rather, how do we get all of 
those nodes to talk to each other.
    Finally, as Mr. Verga mentioned, we really have spent a lot 
of money since Hurricane Katrina and really in recognition of 
the importance of these national planning scenarios to train, 
fund, and equip teams at the State, at the regional, and at the 
Federal level to respond to a CBRNE event. So I am much more 
comfortable, and I think if Admiral Tim Keating were sitting 
here today, he would give you the same answer.
    Chairman Lieberman. Good. Admiral, from the DHS 
perspective?
    Admiral Rufe. Yes, sir. Just to go back a little bit to the 
Carter-Perry report, I participated in that roundtable, and I 
do not think that was the conclusion that I drew from it. It 
was the conclusion, I think, of the people around that table 
that clearly an event of that nature would overwhelm State and 
locals even in a city as well prepared as New York and that 
there needed to be a strong and immediate Federal response to 
that. But, more importantly, I think it recognized the fact 
that no matter how well prepared we are--and we still have much 
to do--an event that horrific in terms of the number of dead, 
the number of people irradiated, the extent of radiation 
contamination, which would leave a large area uninhabitable for 
an extended period of time, and on and on, that the emphasis 
ought to be placed certainly on preparing for such an event 
but, more importantly, on preventing such an event.
    Chairman Lieberman. Yes, absolutely. Obviously, we have 
spent a lot of time, including on this Committee--I appreciate 
your mentioning it--on both the work that your Department of 
Homeland Security does and the Director of National 
Intelligence does, along with other parts of our government, 
obviously DOD, to prevent these attacks from occurring. So we 
are focused here--and it is important to point that out--on the 
response.
    General Blum and General Libby, do you have a word or two 
from the perspective that you have, which is more uniquely a 
State perspective?
    General Blum. Yes, sir. Thank you, Mr. Chairman. The 
question that I wanted to respond to was the words ``control 
the situation.'' There is no State or local government that is 
equipped and prepared to deal with the type of event that you 
describe. You are talking about a nuclear detonation in a 
large-population area. It will absolutely require all of the 
elements of this Nation's power to respond in a support role to 
the constitutionally established civilian governance that 
exists or survives that event.
    Chairman Lieberman. And, quickly, of course.
    General Blum. Absolutely. It has to be immediate, and that 
requires preplanning and pre-thinking. The type of exercises 
that we conducted in Indianapolis take us a far, far, giant 
step forward in being better prepared. We are not fully 
prepared, but I will tell you we are far better prepared today 
than we were just several months ago, and dramatically better 
prepared than we were 5 years ago.
    Chairman Lieberman. And, obviously, you are speaking from 
the perspective of the National Guard.
    General Blum. Yes, Mr. Chairman. I am speaking from the 
perspective of the National Guard, but the National Guard as a 
player on a team with the Department of Defense, the U.S. 
Northern Command, the Department of Homeland Security, and the 
States. From my position on the team, the team is far better 
prepared. Are we fully prepared? No.
    Chairman Lieberman. General Libby.
    General Libby. Yes, sir, thank you. I do not disagree with 
anything I have heard, and I would simply say that I do not 
think any of us at State level anticipated, prior to Hurricane 
Katrina, that a State would be overwhelmed as quickly as 
Louisiana was.
    Chairman Lieberman. Right.
    General Libby. And I would tell you that all of us now take 
seriously that one part of our responsibilities to our 
governors is to prepare them for the eventuality that a State 
may be overwhelmed. I think that is where we are focusing our 
attention right now. Clearly, the response to that and the 
protocols that will direct that response are being developed 
above us. But I think our obligation at the State level is to 
prepare each one of these politicians who are our governors for 
the reality that the State can be overwhelmed, and they need to 
be prepared to deal with that, and the protocols are in place.
    Chairman Lieberman. Very important. Thank you. That is the 
critical point that is hard for some people to understand. We 
are distinguishing here between a natural disaster, which can 
have significant adverse effect--a normal hurricane or a 
tornado--and, on the other hand, a catastrophic disaster, which 
was what Hurricane Katrina was. Again, we need to have these 
discussions about a WMD attack against the United States here 
in this kind of session in a rational way. We are in a very 
different place, of course, than we have been before, and it is 
not a place any of us want to be, but that is where we are, as 
the National Intelligence Estimate said yesterday. So one can 
imagine even a WMD attack that would be controllable in a local 
area, but you can imagine others, such as a nuclear attack, 
that would be catastrophic and would totally overwhelm State 
and local and where all of you are going to be very important. 
Thank you very much for those answers.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Blum, in January you testified before the 
Commission on the National Guard and Reserves, and you said, 
``Eighty-eight percent of the forces that are back here in the 
United States''--this is after having been deployed--``are very 
poorly equipped today in the Army National Guard.''
    A GAO report that was also released in January found that 
most State National Guard leaders had also expressed concerns 
about having sufficient equipment to respond effectively to a 
large-scale disaster, whether natural or manmade.
    What is your assessment today of whether the National Guard 
has sufficient resources to provide adequate support to civil 
authorities in the event of another catastrophic event like 
Hurricane Katrina?
    General Blum. Senator, let me put it to you this way: If it 
is a predictable event, we have enough equipment in the United 
States to move it and preposition it with advance notice, both 
in the National Guard and then if I do not have it in the 
National Guard, I can get it from the other elements of DOD. In 
a predictable event, I can do that, as we have done in 
preparation for this hurricane season that we are in right now.
    All the Coastal States from Maine to Texas have 
predetermined requirements of the equipment that they do not 
have. In Maine, for example, General Libby has requirements if 
a hurricane were to hit the coast of Maine. He knows what he 
has and he knows what he needs. We know where it is coming 
from, and that is the chart to which General Renuart alluded.
    The fact that he knows about the chart and the Department 
of Defense knows about the chart and the Department of Homeland 
Security knows about the chart, and the States built the 
charts, is very important. That did not exist 4 years ago. In a 
predictable event, we can make do with not having enough 
equipment because we can move it around.
    In a no-notice event, we are at risk, and we are at 
significant risk. In the kind of event that Chairman Lieberman 
is describing, we would be at great risk.
    Senator Collins. I appreciate that assessment.
    General Libby, General Blum mentioned a database that the 
National Guard Bureau has developed of 10 key areas of 
capabilities for missions that the National Guard would be 
called upon to perform in the event of a disaster, such as 
transportation, logistics, and security. And the intent, if I 
understand it correctly, of this database is to show which 
States are mission ready in each of the 10 areas. The database 
also requires each of the TAGs to report on mission readiness 
not only for the National Guard units but also for other State 
agencies, such as medical or HAZMAT capabilities.
    Now, you are in a unique situation because you wear all 
those hats in Maine, but that is not the case in most States. 
Do you think this database is a feasible, realistic, and 
accurate description of the capabilities for other States?
    General Libby. Yes, I do, Senator, because, again, it is 
being developed at State level, and despite the fact we are 
organized uniquely from State to State, the development of that 
database, while it might be an action of the TAG because it 
involves looking at Department of Transportation, marine 
resources, inland fisheries and wildlife, and the like, takes 
place in what we call the emergency response team level at 
State level. So I am satisfied that occurs.
    Again, I think where the disconnect in communication occurs 
is that database can be developed and shared upwardly, but in 
the communication that comes down the pipe from DHS in 
particular, if we do not provide a forum--and Art Cleaves is 
doing that at FEMA Region I--where we get those disparate hats 
into the room when one person does not wear them all in the 
State, that is where our communication gaps occur.
    I also need to point out to you that as we have gone 
through transformation in the National Guard, there has been a 
recognition at the National Guard Bureau level that these 10 
essential capabilities are, in fact, essential for each 
governor to carry out his or her responsibilities for their 
citizenry, and there has been a magnificent effort at the 
National Guard level, as we have gone through transformation, 
to ensure that we all have some piece of those essential 
elements.
    So I am absolutely satisfied that the data that is 
reflected on those charts has been vetted properly at State 
level.
    Senator Collins. Thank you.
    General Libby, General Blum just told us that if there is a 
catastrophic event that is unpredictable--not a hurricane that 
you know is coming but, for example, a terrorist attack would 
be an unpredictable event--he believes that we are at 
significant risk because we have not sufficiently equipped the 
National Guard to help provide the adequate response to civil 
authorities.
    Is that your assessment for the State of Maine as well?
    General Libby. Yes, Senator it is. We spend the bulk of our 
time in Maine, as they do in all of the other 53 States and 
Territories, looking at the risks that we have assessed that 
the State faces and focusing our attention on those risks. They 
have not included until very recently the catastrophic type 
events that we are talking about here this morning, but I am 
absolutely satisfied that in Maine--and I think I can speak for 
virtually the other 53 States and Territories--and concurring 
entirely with the Chief's assessment, we are not prepared to 
deal with those type of catastrophic events.
    Senator Collins. General Renuart, the Commission on 
National Guard and Reserves in its March report stated that the 
commander of U.S. Northern Command does not sufficiently 
advocate for the full range of civil support requirements 
affecting the National Guard, and the report goes on to say 
neither do the chiefs or the vice chiefs of the Army or the Air 
Force.
    The Commission went on to say that it had raised this issue 
repeatedly with witnesses from both the Department of Defense 
and DHS, but that no one person is a real advocate in this 
area. Could you comment on that?
    General Renuart. Senator, I would be happy to, and I 
appreciate that question, and I think at the time of the 
Commission's report, the statement was accurate. I do not think 
it is accurate today.
    First, given the additional authority from the Secretary of 
Defense, the Commander of USNORTHCOM is the advocate for the 
National Guard and the Reserve in the budgeting process within 
the Department of Defense. And as a result, I take the 
assessments that General Blum and the Adjutants General (TAGs) 
put together on the gaps that exist out there in terms of 
funding for their equipment. And in this budget cycle, I will 
be carrying them forward in my commander's Integrated Priority 
List, which is the way that we put requirements into the Joint 
Requirements Board process within the Department of Defense, 
and compete them for funding.
    Now, the Committee I know is aware that through the work of 
the National Guard Bureau and the Secretary of the Army and the 
Chief of Staff of the Army, in the 2008 to 2013 budget cycle, 
there is a substantial infusion of money into equipping the 
National Guard, some $21 billion over that 5-year period. That 
will not solve all of the issues that we have worked. Our job 
at USNORTHCOM is to look at those unique gaps that exist 
between what I will call traditional warfighting missions and 
the missions that the governors would ask the National Guard to 
do to respond to a catastrophic or a natural disaster event in 
their State.
    We then will take that through the funding process and 
advocate that, whether it is before the Committees or in our 
normal budgeting process.
    So I think today we have a much clearer process whereby the 
Commander of U.S. Northern Command will be a principal advocate 
for the National Guard in this process.
    Senator Collins. Secretary Verga.
    Mr. Verga. Thank you, ma'am. I would add to what General 
Renuart said that the U.S. Northern Command, in conjunction 
with our office, is, in fact, leading something we call a 
``capabilities-based assessment'' of the homeland defense and 
civil support missions that the Department might have to 
undertake. That capabilities-based assessment will, in fact, 
result in our ability to work within the requirement-setting 
process so that we can, in fact, meet those needs that are 
identified there.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Stevens, glad to have you here this morning.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Thank you very much. I am sorry to be 
late.
    I have come primarily because of a problem that I ran into 
in Alaska. I do not want to get too provincial about this, but 
our fire situation nationally is becoming one of the major 
natural disasters that we all face. I have found that the 
planes that have been used to scoop up water from our lakes and 
drop it on the fires are now non-existent, that they have all 
been taken out of our State, one-fifth the size of the United 
States. We have more than 60 percent of all the timber of the 
United States in one State. The last two planes are in Arizona, 
I am told, that are available to the system.
    Now, it is not a National Guard problem per se, but I think 
we need to look at developing new strategies to deal with some 
of these emergencies, such as fires. I had occasion to visit 
with our adjutant general, who is a great friend and a very 
competent man, and we talked about the use of helicopters that 
they have to lift the buckets of water. They are not as 
efficient as the planes used to be. Why we have passed up the 
concept of building a new generation of planes to fight fires I 
do not know, but we do not have any. I am told that these last 
two are under contract, as a matter of fact, not even owned by 
the Federal Government.
    Admiral Rufe, you and General Renuart and General Blum, I 
have worked closely with all of you over the years on a lot of 
things. So I was surprised to find this problem, that it had 
not been addressed, so far as I can find out, and Arizona now 
has the planes. And it is logical because they are down close 
to the place where more development and more individuals might 
be affected by fires. If I were managing it, I probably would 
have made the same decision, send them where the fires will 
occur in later summer. Our fires, incidentally, occur primarily 
before the 4th of July. But that is because of the storms. They 
are primarily set off by lightning, although this last one was 
caused by a young man who was sharpening a shovel with a file. 
We will not go into that, but the difficulty I have is planning 
ahead. We now have beetle kill in the West that has killed so 
far about one-third of the trees in the national forests, and 
we expect that to continue to expand. The beetle kill is an 
enormous fuel for fires.
    Is anyone addressing the question of equipment for the 
National Guard to meet emergencies? I do not know if you all 
have gone into that. This is just one instance of the type of 
equipment. We have the total force there equipped for war, but 
are they equipped for national emergencies of this type? Should 
we have someone make a study of the equipment that you all need 
to meet these new contingencies? I certainly think it is going 
to be a budget problem.
    What do you think about this? How can we handle this 
equipment problem, particularly where we have a situation where 
the primary tool for fighting fires--and I am told that was the 
best tool we had, the aircraft--is gone.
    General Renuart. Senator, if I might lead off, that is a 
great question. I appreciate that. I would tell you that you 
are correct, the contract process for that has a smaller 
footprint than it has ever in the past. Of course, that is run 
and coordinated by the National Interagency Fire Center that is 
out in the West in the United States today.
    While we do not have in the Department of Defense specific 
airplanes designed for that process, I do have and the 
Secretary signed an execute order (EXORD) that will allow me 
authority to keep six C-130s--in fact, they are based at 
Peterson Air Force Base. I fly with that unit. They are 
configured with a modular airborne fire fighting system. They 
are available at the request of the National Interagency Fire 
Center, and they can be deployed anywhere in the country.
    So we have chosen to retain that capability with this unit. 
That particular unit owns 12 airplanes. We have six of the 
airborne systems, and to this point, the fires have been such 
that the request has not been exercised. However, I have the 
authority to deploy them on a telephone call.
    Senator Stevens. Well, let me tell you, the fire that I 
went to see this last recess was one that was very interesting 
because the first 2 days, the cost of fighting that fire was 
very small. It was contained. The third day it got away, and 
the increased cost of that fire to the Federal Government and 
to the State government and some of the private owners was 
horrendous. It increased 40-fold.
    The planes had left Alaska the day before that fire 
started, and where you have those planes, it is going to take 
at least a day or two to get up to where we are.
    Why can't we work out some regimen with the National Guard 
for emergency use of some of these helicopters and these 
buckets? It will at least be of some use. But, also, why can't 
we get a study on getting them back into Federal ownership? 
Those are Canadian planes, as I understand it. We are 
chartering them from Canada after their fire season is over.
    Mr. Verga. Sir, if I may, of course, we work with the 
Department of Agriculture, the U.S. Forest Service, when we are 
talking about what we do in support of wildland firefighting. 
It is coordinated, as the General said, through the National 
Interagency Fire Center, which is out in----
    Senator Stevens. I understand that, Mr. Secretary, but you 
know how long that takes? That takes 3 days if you are dealing 
with Alaska. In that 3 days, the fire consumes another 80,000 
acres of timber.
    Mr. Verga. Yes, sir. With regard to the availability of the 
National Guard aircraft--helicopters, for example, that would 
be up in Alaska--it is within the authority of all local 
commanders to include Title 10 forces, or anything, to use DOD 
resources in support of an emergency, to prevent great property 
damage, save lives, or mitigate suffering. We call it the 
emergency immediate response authority. So the local commander 
of a base, if he has a helicopter and it is equipped with--the 
term is ``Bambi Bucket''--the buckets that scoop up and drop 
water, has the authority on his own to be able to respond.
    Again, the modular airborne firefighting system that 
General Renuart talked about had been procured by the Forest 
Service and are flown on National Guard and Air Force Reserve 
aircraft, which are available for deployment at the direction 
of the center that is coordinating forest fire response 
throughout the country.
    Senator Stevens. Mr. Secretary, none of those carry water. 
You are talking about C-130s. They are not going to be capable 
of carrying water like the old planes we used to scoop up water 
with. And these people have not been trained to fly buckets and 
trained to coordinate with the ground crews to fight fires with 
those buckets.
    Now, I am saying to you it is nice to say you have got that 
coordination on the books. I do not think there is a finer 
commander in the country than General Campbell, and he tried 
his best. The difficulty is to get this coordination going 
while the fire is going on. To my best knowledge, there is no 
current arrangement for training of some of the local National 
Guard people to work with the firefighters to deal with these 
situations if they occur.
    Second, why should we get down to the point that a Nation 
this size has two planes left that will scoop up the water and 
dump it on the fire, which is the best method of stopping a 
fire immediately.
    Mr. Verga. Yes, sir.
    Senator Stevens. I really cannot accept the fact that you 
have got a lot of things in agreements. If you had them in 
agreements, they did not work in this case. And I do not think 
they are working currently down in the South 48, either.
    Mr. Verga. I will commit to you, sir--we had a similar 
situation in California about 3 years ago when we ran into the 
problem with a lot of fires out there. I will commit to you to 
looking into the ability of the military units in Alaska to be 
coordinating with the ground firefighting elements and let's 
get that necessary training communications to be----
    Senator Stevens. Coordinating with what, Mr. Secretary? 
There are not the aircraft there. When are we going to wake up 
and start getting some plans to replace those aircraft?
    Chairman Lieberman. General Blum, do you want to get into 
this?
    General Blum. Mr. Chairman, not really, but I will do 
this----
    Chairman Lieberman. Do you want to come to the defense of 
Secretary Verga?
    General Blum. Well, I think I will just try to bring some 
perspective to the discussion. What Senator Sevens is saying is 
true. The capability to scoop water is not in the military air 
capability any longer. It is in the civilian contractor world. 
These are old airplanes. They are operated by civilian 
companies and under contract from various people for 
firefighting.
    What General Renuart was describing and what we do have in 
the National Guard, and we do make available, Senator, is the 
kits--we have 16 kits that will slide up inside of a C-130. The 
crew must be trained how to operate the kit and maintain the 
aircraft because it is problematic. You have seen that red 
stuff----
    Senator Stevens. General, don't you have to go back 
somewhere and land to fill those----
    General Blum. Absolutely you do.
    Senator Stevens. With the other ones you just went back to 
the nearest----
    General Blum. You went to the lakes.
    Senator Stevens [continuing]. Water and fought it.
    General Blum. No question. But what I am trying to tell 
you, Senator, is they do not exist in the U.S. Air Force or the 
U.S. Army today. They are certainly not in the National Guard 
because we only have Army and Air Force equipment.
    What exacerbates what you are describing is that at the 
time the Alaska fires were going on, there were wildfires in 17 
other States that were competing for the scarce resources that 
we do have in Colorado, Wyoming, California, and North 
Carolina, and these buckets that Secretary Verga is talking 
about, they literally are buckets. They hang under the 
helicopter, and they are literally a bucket on a rope in a more 
sophisticated manner, but you can drop them in a local water 
source, a lake nearby the fire, but you are throwing a bucket 
of water on an 80,000-acre fire from the helicopter, and it is 
less than optimal.
    I will make a commitment to call General Campbell, and if 
there is anything not in the fight right now in the country, we 
will get it in the fight in Alaska.
    Senator Stevens. I am not being totally provincial. I am 
saying I think we should plan to find a way to build some new 
aircraft or at least adapt some aircraft to the old function. 
One helicopter dumping--I do not know how many gallons it can 
hold, but it really does not do the job that airplane used to 
do. I am told that if we had had those two aircraft, we could 
have put that fire out in 2 days.
    General Blum. And I tend to think you are correct.
    Senator Stevens. But there are no such airplanes now.
    General Blum. Well, sir, we are in violent agreement on 
that.
    Senator Stevens. Why doesn't someone come up with a plan 
and a request to build some airplanes or modify some old ones 
to turn them into the scooping type of aircraft?
    General Renuart. Well, Senator, I think that goes back to 
my role advocating for just this kind of capability. I think we 
have committed that we will try to figure this out, and we will 
return back to you or to the Committee and try to give you a 
sense of how we could move forward on this.
    Senator Stevens. Thank you very much.
    Chairman Lieberman. Thank you, Senator Stevens.
    I think Senator Stevens raises a question from a unique 
local perspective which obviously has very serious national 
implications, and in some ways on a slightly different disaster 
consequence, it is exactly what General Blum said earlier, 
which is that the National Guard is ready to respond to a 
predictable natural disaster, perhaps even one of a 
catastrophic nature--predictable, I presume you mean, General, 
in the sense that there is a weather forecast that is credible 
that says that a catastrophic hurricane is heading somewhere, 
to the Gulf Coast, let's say. And the reason that you are ready 
is that you can move resources and personnel--you have the time 
because it is predictable--to wherever the crisis is. But the 
problem is where the National Guard is not ready everywhere in 
the United States for a non-predictable event such as a 
terrorist attack.
    General Blum. Or even a tornado. A killer tornado going 
through three towns in Iowa, the Governor of Iowa and the 
adjutant general of Iowa are going to be looking for help from 
neighboring States and surrounding States, no question.
    Chairman Lieberman. Right. So I think there are two 
questions. One, can we create a system that is ready throughout 
the country for the non-predictable events? Or two, is there a 
way in which USNORTHCOM can be prepared to rapidly supplement 
local areas in the case of a non-predictable event, either 
natural or terrorist? General, do you have a quick answer.
    General Renuart. Mr. Chairman, yes. I think we have through 
the lessons learned with Hurricane Katrina, through the lessons 
we saw in both Exercise ARDENT SENTRY in New England and in 
Indianapolis, we have, if you will, created tiered sets of 
capability that allow a first responder to get on scene and 
begin to assess, but very rapidly brings additional State 
responders, whether it is civilian or the National Guard, the 
Emergency Management Assistance Compact that brings in 
surrounding States, and then at the same time, the Department 
of Homeland Security and FEMA are responding from the Federal 
level to bring the larger muscle movements to that.
    Senator I think it would be unfair to characterize that in 
a nuclear detonation, for example, a terrorist detonation of a 
nuclear weapon, all of us would not be overwhelmed up front. So 
it is important to realize that you will have that period as 
you are building your response.
    I think I am comfortable in saying that among all of the 
agencies here, we recognize the size of that problem, and we 
are in the process of building additional capacity that will 
allow us to shorten sort of the period of chaos----
    Chairman Lieberman. In other words, your goal is not to be 
overwhelmed for long?
    General Renuart. Correct.
    Chairman Lieberman. I got you. Unfortunately, a vote has 
gone off. This is a very critical question, and it is one that 
I actually would like to see if we can organize some process--
Senator Stevens said it about his particular question--to 
determine what we need to shorten that gap during which it is 
going to be hard not to be overwhelmed so that we can bring 
relief to the people as quickly as we can.
    Senator Collins has one question, and then, unfortunately, 
we are going to have to adjourn.
    Senator Collins. Thank you, Mr. Chairman.
    General Libby, you, among this panel, are probably the only 
one who realizes that I have never missed a vote, so I am going 
to ask you to be very quick in your response to my question. 
You talked about the fact that there were included some changes 
in the Insurrection Act at the behest of Senator Warner in the 
DOD bill, and you suggested that be repealed. So let me ask you 
this question: Do you see any need to expand the situations in 
which the President can deploy Federal troops to a State during 
a disaster? Or do you think that the old law was adequate?
    General Libby. I think the governors and the adjutants 
general spoke with one voice on that subject a year ago, and 
the answer, Senator, is the old law was adequate in our 
collective opinions.
    Senator Collins. Thank you. And I want to thank all of our 
witnesses today for truly terrific testimony. Very helpful.
    Chairman Lieberman. I agree. I thank you. I thank you for 
what you do every day. I am just looking at the panel, and you 
are really the five people that the Commander-in-Chief is going 
to turn to on a day of a catastrophe in this country, which we 
hope and pray does not come but we know probably will. And the 
bottom line, my reaction to the testimony that you have given 
today is that we are significantly better prepared, certainly 
than we were on September 11, but definitely than we were in 
response to Hurricane Katrina. We are going to keep the record 
open of this hearing for 15 days. We have got more to do, and I 
invite you to be as specific as you can in writing to the 
Committee about what you need from Congress to help you be as 
prepared as humanly possible.

       INFORMATION SUBMITTED FOR THE RECORD FROM GENERAL RENUART
    We would appreciate the Committee's support of our efforts to 
integrate most day-to-day operations into a single NORAD and USNORTHCOM 
Command Center on Peterson Air Force Base. Exercise ARDENT-SENTRY--
NORTHERN EDGE 2007, which is the most complex exercise of this 
magnitude every undertaken by USNORTHCOM and the National Guard Bureau, 
reinforced that our integration of NORAD and USNORTHCOM missions into a 
single command center is an essential element for an effective response 
to the full spectrum of threats to the United States and Canada.

    Senator Lieberman. But in the meantime, I thank you very 
much for being on guard every day for us and for the people of 
this country. The hearing is adjourned.
    [Whereupon, at 12:11 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7361.001

[GRAPHIC] [TIFF OMITTED] T7361.002

[GRAPHIC] [TIFF OMITTED] T7361.003

[GRAPHIC] [TIFF OMITTED] T7361.004

[GRAPHIC] [TIFF OMITTED] T7361.005

[GRAPHIC] [TIFF OMITTED] T7361.006

[GRAPHIC] [TIFF OMITTED] T7361.007

[GRAPHIC] [TIFF OMITTED] T7361.008

[GRAPHIC] [TIFF OMITTED] T7361.009

[GRAPHIC] [TIFF OMITTED] T7361.010

[GRAPHIC] [TIFF OMITTED] T7361.011

[GRAPHIC] [TIFF OMITTED] T7361.012

[GRAPHIC] [TIFF OMITTED] T7361.013

[GRAPHIC] [TIFF OMITTED] T7361.014

[GRAPHIC] [TIFF OMITTED] T7361.015

[GRAPHIC] [TIFF OMITTED] T7361.016

[GRAPHIC] [TIFF OMITTED] T7361.017

[GRAPHIC] [TIFF OMITTED] T7361.018

[GRAPHIC] [TIFF OMITTED] T7361.019

[GRAPHIC] [TIFF OMITTED] T7361.020

[GRAPHIC] [TIFF OMITTED] T7361.021

[GRAPHIC] [TIFF OMITTED] T7361.022

[GRAPHIC] [TIFF OMITTED] T7361.023

[GRAPHIC] [TIFF OMITTED] T7361.024

[GRAPHIC] [TIFF OMITTED] T7361.025

[GRAPHIC] [TIFF OMITTED] T7361.026

[GRAPHIC] [TIFF OMITTED] T7361.027

[GRAPHIC] [TIFF OMITTED] T7361.028

[GRAPHIC] [TIFF OMITTED] T7361.029

[GRAPHIC] [TIFF OMITTED] T7361.030

[GRAPHIC] [TIFF OMITTED] T7361.031

[GRAPHIC] [TIFF OMITTED] T7361.032

[GRAPHIC] [TIFF OMITTED] T7361.033

[GRAPHIC] [TIFF OMITTED] T7361.034

[GRAPHIC] [TIFF OMITTED] T7361.035

[GRAPHIC] [TIFF OMITTED] T7361.036

[GRAPHIC] [TIFF OMITTED] T7361.037

[GRAPHIC] [TIFF OMITTED] T7361.038

[GRAPHIC] [TIFF OMITTED] T7361.039

[GRAPHIC] [TIFF OMITTED] T7361.040

[GRAPHIC] [TIFF OMITTED] T7361.041

[GRAPHIC] [TIFF OMITTED] T7361.042

[GRAPHIC] [TIFF OMITTED] T7361.043

[GRAPHIC] [TIFF OMITTED] T7361.044

[GRAPHIC] [TIFF OMITTED] T7361.045

[GRAPHIC] [TIFF OMITTED] T7361.046

[GRAPHIC] [TIFF OMITTED] T7361.047

[GRAPHIC] [TIFF OMITTED] T7361.048

[GRAPHIC] [TIFF OMITTED] T7361.049

[GRAPHIC] [TIFF OMITTED] T7361.050

[GRAPHIC] [TIFF OMITTED] T7361.051

[GRAPHIC] [TIFF OMITTED] T7361.052

[GRAPHIC] [TIFF OMITTED] T7361.053

[GRAPHIC] [TIFF OMITTED] T7361.054

[GRAPHIC] [TIFF OMITTED] T7361.055

[GRAPHIC] [TIFF OMITTED] T7361.056

[GRAPHIC] [TIFF OMITTED] T7361.057

[GRAPHIC] [TIFF OMITTED] T7361.058

[GRAPHIC] [TIFF OMITTED] T7361.059

[GRAPHIC] [TIFF OMITTED] T7361.060

[GRAPHIC] [TIFF OMITTED] T7361.061

[GRAPHIC] [TIFF OMITTED] T7361.062

[GRAPHIC] [TIFF OMITTED] T7361.063

[GRAPHIC] [TIFF OMITTED] T7361.064

[GRAPHIC] [TIFF OMITTED] T7361.065

[GRAPHIC] [TIFF OMITTED] T7361.066

[GRAPHIC] [TIFF OMITTED] T7361.067

[GRAPHIC] [TIFF OMITTED] T7361.068

[GRAPHIC] [TIFF OMITTED] T7361.069

[GRAPHIC] [TIFF OMITTED] T7361.070

[GRAPHIC] [TIFF OMITTED] T7361.071

[GRAPHIC] [TIFF OMITTED] T7361.072

[GRAPHIC] [TIFF OMITTED] T7361.073

[GRAPHIC] [TIFF OMITTED] T7361.074

[GRAPHIC] [TIFF OMITTED] T7361.075

[GRAPHIC] [TIFF OMITTED] T7361.076

[GRAPHIC] [TIFF OMITTED] T7361.077

[GRAPHIC] [TIFF OMITTED] T7361.078

[GRAPHIC] [TIFF OMITTED] T7361.079

[GRAPHIC] [TIFF OMITTED] T7361.080

[GRAPHIC] [TIFF OMITTED] T7361.081

[GRAPHIC] [TIFF OMITTED] T7361.082

[GRAPHIC] [TIFF OMITTED] T7361.083

[GRAPHIC] [TIFF OMITTED] T7361.084

[GRAPHIC] [TIFF OMITTED] T7361.085

[GRAPHIC] [TIFF OMITTED] T7361.086

[GRAPHIC] [TIFF OMITTED] T7361.087

[GRAPHIC] [TIFF OMITTED] T7361.088

[GRAPHIC] [TIFF OMITTED] T7361.089

[GRAPHIC] [TIFF OMITTED] T7361.090

[GRAPHIC] [TIFF OMITTED] T7361.091

[GRAPHIC] [TIFF OMITTED] T7361.092

[GRAPHIC] [TIFF OMITTED] T7361.093

[GRAPHIC] [TIFF OMITTED] T7361.094

[GRAPHIC] [TIFF OMITTED] T7361.095

[GRAPHIC] [TIFF OMITTED] T7361.096

[GRAPHIC] [TIFF OMITTED] T7361.097

[GRAPHIC] [TIFF OMITTED] T7361.098

[GRAPHIC] [TIFF OMITTED] T7361.099

[GRAPHIC] [TIFF OMITTED] T7361.100

[GRAPHIC] [TIFF OMITTED] T7361.101

[GRAPHIC] [TIFF OMITTED] T7361.102

[GRAPHIC] [TIFF OMITTED] T7361.103

[GRAPHIC] [TIFF OMITTED] T7361.104

[GRAPHIC] [TIFF OMITTED] T7361.105

[GRAPHIC] [TIFF OMITTED] T7361.106

[GRAPHIC] [TIFF OMITTED] T7361.107

[GRAPHIC] [TIFF OMITTED] T7361.108

[GRAPHIC] [TIFF OMITTED] T7361.109

[GRAPHIC] [TIFF OMITTED] T7361.110

[GRAPHIC] [TIFF OMITTED] T7361.111

[GRAPHIC] [TIFF OMITTED] T7361.112

[GRAPHIC] [TIFF OMITTED] T7361.113

[GRAPHIC] [TIFF OMITTED] T7361.114

[GRAPHIC] [TIFF OMITTED] T7361.115

[GRAPHIC] [TIFF OMITTED] T7361.116

[GRAPHIC] [TIFF OMITTED] T7361.117

[GRAPHIC] [TIFF OMITTED] T7361.118

[GRAPHIC] [TIFF OMITTED] T7361.119

[GRAPHIC] [TIFF OMITTED] T7361.120

                                 <all>

</pre></body></html>
